                                  EVALUATION




 WILDLAND URBAN INTERFACE:
 COMMUNITY ASSISTANCE




Report No.: ER-EV-MOA-0012-2009       July 2010
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                   JUL 3 0 2010
Memorandum

To:            Rhea Suh
               Assistant Secretary for Policy, Management and Budget
                                 CJJ,\/~Mk-V
From:          Mary L. Kendall ~(J'f-::;'fA
               Acting Inspector General

Subject:       Evaluation of Wildland Urban Interface Community Assistance Function
               (Report No. ER-EV-MOA-0012-2009)

         This memorandum transmits our evaluation of the Department of the Interior' s (DOl)
activities pertaining to wildland urban interface areas (WUI) where private and federal properties
intersect and where wildland fires may ignite without warning.

        We conducted this evaluation in response to concerns expressed by the U.S. Congress
and the Office of Management and Budget. DOl's four fire agencies- Bureau of Land
Management, National Park Service, Fish and Wildlife Service, and Bureau ofIndian Affairs-
spend approximately one billion dollars annually to reduce wildland fire damages. Even so,
DOl's wildland fire management programs received the lowest rating possible from OMB ' s
Performance Assessment Rating Tool (PART): "Results Not Demonstrated."

        In response to these concerns, we assessed DOl accountability through its wildland fire
management programs to determine whether or not adequate funding guidance and oversight had
been provided to help WUI communities take advantage of existing federal resources,
specifically National Fire Plan grants, to reduce fire risks. Overall, we identified various
community initiatives that successfully had accessed National Fire Plan grants across the United
States. We also recognized that this number could have increased significantly had clear,
consistent guidance been available from DOl.

      Our report contains four recommendations that, if implemented, would improve visibility,
accountability, and communication associated with the National Fire Plan grants. We would
appreciate being kept apprised of the actions DOl has taken on our recommendations. Please
provide a written response to this office within 30 days, identifYing plans to address the findings
and recommendations cited this report.

       Should you have any questions about this report, please do not hesitate to contact me at
(202) 208-5745 .




                               Office of Inspector General   I Wash ington,   DC
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
Findings................................................................................................................... 4
   Absence of DOI Ownership Reduces Program Visibility................................... 4
   Poor Tracking Mechanism Contributes to Inability to Aggregate Program
   Successes ............................................................................................................. 5
   Program Outreach and Communication Tools Underused ................................. 8
Conclusion and Recommendations ....................................................................... 10
   Conclusion......................................................................................................... 10
   Recommendations ............................................................................................. 10
Appendix 1: Scope and Methodology................................................................... 11
Results in Brief
In 2009, Congress requested data on DOI wildland fire activities to better
understand costs associated with federal firefighting, as well as damage to private
property. In response to this request, we reviewed federal wildland fire activities
implemented since our 2006 review of DOI’s hazardous fuels reduction program.
Particularly, we focused on the impact of federal fire money on wildland urban
interface communities, which are those areas where the destruction of fire extends
from federally managed lands to the homes and businesses of U.S. citizens.

We found that federal efforts to help communities develop and fund community
wildfire protection plans (CWPP), encouraged under the 2003 Healthy Forest
Restoration Act, had produced tangible fire mitigation impacts at the community
level and had established effective federal - community networks that assisted
firefighting and boosted prevention through community education. In spite of
benefits to communities, however, the return on federal investments could have
been multiplied had DOI provided full guidance and oversight through its
wildland fire management programs administered out of its bureaus. Lacking this
guidance, investment in discretionary community assistance grant projects varied,
depending on the level of bureau and community involvement, making it a
challenge to attain their full potential for effectiveness. The community assistance
function suffered for lack of national and Departmental advocacy, program
planning, and an effective reporting mechanism to track the impact of federal
grants on wildfire mitigation in wildland urban interface areas. We have concern
that without such national level advocacy, cooperative efforts between
communities and federal firefighting networks and related funding may diminish
or disappear over time.




                                                                                   1
Introduction
Objective
Through National Fire Plan grants, DOI has provided monies to fund community
wildland fire mitigation projects. We visited 20 projects in wildland urban
interface (WUI) areas to determine the success of DOI cooperative efforts with
communities abutting federal property in reducing their wildland fire risks. WUI
refers to the transition zone where human development meets and intermingles
with undeveloped wildlands.

Background
Our nation’s wildland fire problems have worsened during the past decade.
Environmental conditions (including drought) and the growing number of homes
abutting wildlands have increased opportunities for fires to destroy personal
property and endanger lives. Federal monies appropriated to agencies managing
wildfires have more than doubled since the late 1990s, most recently averaging
approximately $3 billion annually. Four DOI agencies, as well as the Forest
Service in the Department of Agriculture share responsibility for fighting fires on
federal property.

In 2003, with the passage of the Healthy Forest Restoration Act, Congress
encouraged collaboration among communities, local and state governments, and
the Federal government to mitigate and fight fires that could damage private
property and lead to loss of life. This legislation, in part, funded hazardous fuels
reduction projects for communities that developed CWPPs.

In 2006, the Federal 10-year Strategy Implementation Plan, known as
the National Fire Plan, further emphasized the importance of protecting at-risk
properties in WUI areas. The plan facilitated grant funds, provided to
communities through cooperative agreements, which could be used to cover
expenses associated with creating and implementing CWPPs.

Responsibility for wildland fire management at DOI has been delegated to four
bureaus: (1) Bureau of Land Management (BLM), (2) National Park Service
(NPS), (3) U.S. Fish and Wildlife Service (FWS) and (4) Bureau of Indian Affairs
(BIA). Collectively, in fiscal year (FY) 2009, these bureaus spent approximately
$130 million, to reduce fuel loads in wildlife urban interface areas, chiefly those
portions that are federally managed. A significantly smaller amount,
approximately $30 million (data derived from the National Fire Plan Operations
and Reporting System), distributed through the National Fire Plan grants, went to
WUI communities that have applied for the funds since passage of the Healthy
Forest Restoration Act.

In FY 2009, DOI’s Office of Wildland Fire Coordination (OWFC), which has
overall functional responsibility for policy and budget matters, allocated

                                                                                       2
appropriation monies to each of DOI’s four fire agencies, headquartered at the
National Interagency Fire Center (NIFC) in Boise, Idaho. DOI’s four fire agencies
then disseminate their hazardous fuels reduction budget to their respective bureau
counterparts at regional or state levels. It is here, at these levels, that decisions
regarding the amount of grant funding for communities and bureau investment are
made.




Figure 1. California roadside view of a wildland urban interface community.




                                                                                   3
Findings
Absence of DOI Ownership Reduces Program
Visibility
OIG found that while the National Fire Plan’s WUI community assistance grants
are a successful component of DOI’s wildland fire management effort, the effort
succeeds chiefly through the commitment of individual efforts. As part of the fire
management budget, WUI grant funds flow to bureaus from OWFC but without
accompanying guidance and direction. Lacking centralized oversight, the process
has become increasingly de-centralized. Indeed, BLM regional officials we spoke
with expressed confusion about program ownership at the national level.

National bureau fire managers agreed with OIG that there has been an ongoing
leadership void. After we brought this issue to their attention, BLM detailed
various community assistance lead persons from states with successful, innovative
grant programs through its oversight programmatic level to attempt to fill the
void. In taking such a step, BLM eventually expects to be able to share more
broadly across states and regions any successful community-based fire mitigation
actions worthy of emulation. In the active wildland fire states of California and
Idaho, we found that BLM regional leadership has generated successful
community assistance grant programs for WUI areas.

To verify the effectiveness of WUI community assistance grants as well as the
networks through which they operate, OIG visited 20 WUI projects funded
through the grants. At these locations, we found regional bureau, state and local
entities excited about the benefits of projects funded through National Fire Plan
grants and cooperative agreements. Local community representatives and non-
profit entities praised bureau officials who demonstrated ability to sustain
community relationships that transcended individual projects. In the event of a
wildland fire threatening WUI communities, these networks and contacts with the
community can result in improved communication and firefighting
responsiveness, saving lives and property. These networks also help promote
readiness and fire mitigation through improved community awareness.

Nevertheless, we found that no national or departmental level reporting
mechanism facilitated the sharing of lessons learned from grant accomplishments.
What worked in one area might have to be reinvented, either successfully or not,
in another. Whatever sporadic grant monitoring and reporting occurred overall
resulted from individual bureau regional personnel who assumed responsibility
for it.

Again, a primary area of confusion expressed by NIFC and regional bureau
officials was program ownership. Some officials believed federal responsibility to
be secondary to community responsibility because grassroots community effort
spearheads CWPPs and related grant projects. In the field, however, OIG

                                                                                 4
observed that the most successful local efforts funded through the National Fire
Plan grants demonstrated collaboration with bureau officials up the line, who
promoted and sustained grant success. In California and Idaho, the two states in
which our 20 reviewed projects operated, bureau officials actively collaborated
with communities through direct involvement as well as grant funding.

Beginning in 2006, all new fire plans in California had to comply with the federal
definition of CWPPs in order to receive grant funds. Then 2 years ago in
California, BLM leadership began a push for countywide CWPPs to be developed
and included as part of the Federal Emergency Management Agency’s plan. In
Idaho, BLM also encouraged countywide CWPPs, with annual plan updates.
BLM’s Idaho region further requires that all fuels hazardous treatment projects
funded through community assistance grants be identified in a CWPP. BLM
reports that currently all of Idaho's 44 counties are covered by a CWPP
predominantly funded by DOI.

We found it interesting that committed local federal personnel in alliance with
community grassroots leadership have contributed to highly successful
firefighting mitigation activities grounded in CWPPs. Simultaneously, these same
federal employees noted the absence of national level program leadership, a void
that they attempted to fill through local best practices at the community level.
Overall, we found that successes depended more on individuals than on consistent
agreed-upon protocols that guided the process. National level ownership of DOI’s
WUI community assistance function is critical to ensure consistent successes
across the program and increased visibility in the federal, state and
local community.

 Recommendation

    1. Assign program ownership for WUI community assistance grants and
       projects at the Departmental and national bureau level.


Poor Tracking Mechanism Contributes to Inability
to Aggregate Program Successes
WUI community assistance activities suffer from a lack of National Fire Plan
grant program objectives and measures to define levels of optimal performance.
Overall, DOI’s wildland fire management program, functionally administered
through OWFC, has not provided adequate national policy guidance to regional
bureau officials who manage the grants and cooperative agreements facilitating
WUI community activities. Absent such guidance, officials are forced to originate
their own stopgap measures.

We found no guidance from OWFC, and subsequent little or no consistent bureau
policies or guidance that addressed community assistance program management
or objectives, monitoring or performance measurement to determine the impact of
                                                                                   5
the grants and cooperative agreements. Even though a centralized NIFC database
with a WUI community assistance module does exist, the database module is
weak, used inconsistently, and ineffectively designed to capture performance data
on key activities. The database, the National Fire Plan Operations and Reporting
System (NFPORS), is the interagency management tool used by DOI fire
agencies and the Forest Service to track and report accomplishments for
hazardous fuels reduction and burned area rehabilitation. Currently, the WUI
module is treated as a minor element. In reality, a greater focus on the module
would help to demonstrate the benefits of community assistance work as a fire
management tool.

Absent critical national level guidance, bureau officials in Western states that
include California and Idaho have chosen to fill the gap by developing their own
specific grant management guidelines and program objectives to template
standardization and capture successes. In California, BLM, FWS, NPS, and the
U.S. Forest Service, have partnered with the California Fire Safe Council (CFSC),
a non-profit organization, to administer the community assistance grants program.

California regional bureau officials have developed a relationship with the CFSC
that has resulted in a streamlined application and management process freeing
bureau staff from grant management and writing assistance and allowing more
work hours to be used for fire education and collaboration. CFSC has spelled out
each bureau’s criteria for treatments on Federal and non-Federal lands, as well as
bureau requirements for matching contributions for cooperative agreements.

In Idaho, BLM established its initial grant program objective to be the
development of CWPPs for all communities in the state. This was accomplished
in 2004. The BLM Idaho grant program occurs through cooperative agreements
with state Resource Conservation and Development Areas. These are non-profit
organizations originally defined and fostered by the Forest Service. Idaho’s BLM
fire mitigation and education specialists work with these non-profits to determine
which projects to fund.

Both examples, which demonstrate state level successes, might be useful to other
parts of the wildland fire community if such information had a means through
which it could be aggregated up and guidance provided out to the fire community.
Indeed, OIG found that the NFPORS WUI community assistance module does not
provide an adequate platform for monitoring, oversight, and performance
measurement. Specifically, it primarily collects acre-based information, failing to
comprehensively document outreach activities that also contribute to WUI
successes and demonstrate the robustness of community efforts.

This imbalance is largely due to the dominance of two performance measures for
hazardous fuels reduction: number of acres treated and associated costs of
treating acres. OWFC and bureau officials told us that because few non-federal
acres are treated in WUI, and the costs of treating these acres are high, spending
limited resources on the National Fire Plan grants is not a priority.
                                                                                     6
The current system also fails to measure the number of at-risk communities with
CWPPs developed and funded with DOI grant assistance. Of the 69,930
communities at risk, according to the National Association of State Foresters’
Communities at Risk Report FY 2009, only 5,567 had developed or were included
in a CWPP or equivalent plan. These communities with CWPPs, however, had no
discernible link back to their funding sources, leaving OIG unable to determine
how many communities had developed CWPPs using DOI grant assistance.
Nevertheless, DOI’s 2009 budget justification still states that 78 percent of WUI
acres targeted for treatment are identified in locally-developed CWPPs, an
increase from 2008 of about three percent. This figure illustrates the absence of a
clearly articulated link between acres treated and the number of communities
occupying this acreage that have a CWPP relationship with DOI.

Current strategic performance measures track acres treated in the WUI identified
through CWPPs, a laudable approach to demonstrating expansion of interest at the
community level. However, the absence of a feedback loop to reflect Federal
dollars contributed to CWPP development (including monies and their labor
equivalents referred to as sweat equity that are contributed by communities as
matching funds for grants received) undermines the wildland fire management
program’s ability to determine the real value of the effort to communities. The
National Fire Plan cites two specific performance measurements for tracking
community assistance progress and both of these measurements rely on
information obtained from CWPPs (i.e., the number and percent of treated WUI
acres identified in CWPPs, and the number and percent of communities-at-risk
both covered by a CWPP and reducing their wildland fire risk). By extension, the
number or percentage of communities at risk that DOI has helped with funding
and CWPP development would be a logical target performance measure for
National Fire Plan grants.

This absence of national or aggregate reporting requirements for WUI community
assistance accomplishments not only contributes to the program’s low visibility
but also demonstrates the absence of national program objectives. Essentially the
effort remains ad hoc. No DOI requirements for WUI community activity
reporting exist to strengthen and reinforce guidance from the bureaus. Indeed, in
the absence of direction from OWFC, bureau guidance also fails to specify who
should review progress reports, financial reports, and success stories generated at
the state and local levels, although, bureau officials in California, for example,
note that field officers do prepare community assistance project success stories for
use by the press as well as local and regional agencies in the event of a highly
publicized fire. We believe that underreporting or failure to report community
successes at the DOI national level and to capture this as reportable data
(including community-contributed matching funds and labor) may discourage
further investment in these cooperative grants.

We found that outreach and educational activities are not recorded in any
measurable manner in NFPORS even though these activities are key aspects of
                                                                                  7
fire grants’ community assistance function. BLM officials in Idaho told us that 90
percent of WUI community assistance-funded activities involve outreach and
education rather than fuel mitigation treatments. Non-acre-based activities such as
education and outreach also are inconsistently entered by field personnel because
NFPORS guidance does not define how to measure these activities. Non-acres
based implementation actions include: community outreach events, home
evaluations/assessments, media and public information events, monitoring,
training residents, data collection, coordination, and distribution of educational
materials. OWFC and bureau officials told us that these activities are difficult to
quantify or measure compared to acres-treated. While this may be true, we believe
that capturing non-acre-based activities is critical to provide the fullest picture of
WUI successes achieved with Federal dollars.

A new multi-year contract for the modification of NFPORS was negotiated by
OWFC in October 2009 with a base year cost of approximately half a million
dollars, but with no plans to improve the WUI module’s collection and reporting
activities. As the system administrator explained, it is not a matter of cost, but
rather the absence of any direction or guidance indicating the need to develop
effective WUI performance measurements, tracking and monitoring standards,
and reporting tools.

 Recommendations

     2. Strengthen the interagency NFPORS WUI community assistance
        module, including issuance of comprehensive guidelines for users,
        defined project activity elements, and performance monitoring and
        tracking tools.

     3. Establish consistent WUI community assistance grant policies and
        guidance addressing program objectives and performance measures.


Program Outreach and Communication Tools
Underused
Local community assistance outreach and education products fostered through
National Fire Plan grants have been ineffectively disseminated, again due to the
absence of national level direction. As a result, duplicated effort and wasted
resources may occur. Information and product sharing promotes collaboration,
envisioned originally by the National Fire Plan and Healthy Forests Restoration
Act. To date, programmatic decentralization has encouraged grassroots
ownership. Now, national level coordination is needed to make possible the
efficient sharing of lessons learned and products developed among the ever
increasing number of communities occupying WUI.

OIG found that in the absence of clear national level direction or measures, some
bureau regions still create effective outreach programs that could benefit and
                                                                                     8
inform other WUI communities and stakeholders. To facilitate such sharing,
regions have formed collaborative working groups and used nonprofit
organizations to manage and cultivate community outreach and education. In
addition, bureau fire mitigation and education personnel have teamed up with
grant specialists and local stakeholders to create vibrant programs. The result has
been increased fire prevention as well as an enhanced community image for the
Federal government. Increased information sharing across regions and bureaus
could only be strengthened through the creation of a central repository for
outreach products maintained at a national level.

One example of an effective program funded through BLM grants and distributed
by local stakeholders is the “Take Responsibility” outreach effort in California,
which includes brochures and flyers easily adaptable to other localities. A second
example, also from California, is the Butte County Fire Safe Council “Fire on the
Ridge” program, which includes materials and lesson plans for 5 one-hour
sessions aimed at 6th grade students. Approximately 2,000 students have been
exposed to this program so far.

Disseminating projects that focus on fuels management also would benefit
National Fire Plan goals. Idaho’s REDZONE project could be adapted to the web.
It makes quick and easy wildfire risk assessments of individual structures
available to both the owners and professional fire personnel. These assessments
come with recommendations on how to lower wildfire risk and are also uploaded
to a database that creates detailed maps to assist fire prevention and suppression.

Providing stakeholders with website based success stories and best practices could
create a “one stop shop” for community fire mitigation activities with little DOI
investment. Sites such as http://www.forestsandrangelands.gov/ (joint effort with
DOI and USFS) and http://www.nwcg.gov/branches/ppm/cepc/archives/wfewt/
wfewt.htm (joint effort with DOI and USFS) are not updated regularly but are
capable of offering downloadable products.

During OIG site visits, local managers, staff and stakeholders frequently
expressed desire for a central product repository of materials. While the specific
nature of fire danger in certain areas could make adapting materials difficult,
these projects still could provide models for successful educational materials.

 Recommendation

    4. Establish a national methodology for sharing educational and outreach
       products developed through WUI community assistance grants.




                                                                                      9
Conclusion and Recommendations
Conclusion
Sponsoring National Fire Plan grants is a key tool used by DOI’s wildland fire
management programs to promote community assistance and collaboration.
Federal grant monies and direct bureau involvement have helped community
beneficiaries mitigate fire risks and form partnerships with state and local fire
entities. Nevertheless, significant opportunities to improve the community
assistance function have been overlooked because the program lacks internal DOI
ownership. Such ownership could result in clarified objectives and performance
measurements, development of effective monitoring tools, and improved outreach
and communication.

Recommendations
   1. Assign program ownership for WUI community assistance grants and
      projects at the Departmental and national bureau level.

   2. Strengthen the interagency NFPORS WUI community assistance module,
      including issuance of comprehensive guidelines for users, defined project
      activity elements, and performance monitoring and tracking tools.

   3. Establish consistent WUI community assistance grant policies and
      guidance addressing program objectives and performance measures.

   4. Establish a national methodology for sharing educational and outreach
      products developed through WUI community assistance grants.




                                                                               10
Appendix 1: Scope and Methodology
The objective of the evaluation was to determine if the Department had provided
adequate guidance and oversight to help WUI communities reduce their risk from
wildland fire. We conducted the evaluation in accordance with “Quality Standards
for Inspections” issued by the President’s Council on Integrity and Efficiency.
This review was limited to WUI communities that have received DOI grant
funding and assistance. We initially narrowed the focus of the review to the 8
states receiving the most DOI WUI grant money. California and Idaho were
selected for more in-depth review and a total of 20 projects were visited during
fieldwork. During the course of the review, we interviewed and obtained pertinent
documents from officials in OWFC, NIFC, as well as regional bureau officials
from BLM, NPS, FWS, and BIA.




                                                                              11
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
